      Review of Compliance with Provisions of the Railroad Retirement Act 

     Governing the Initial Award of Benefits, Report No. 06-05, April 12, 2006 



                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) review of
compliance with provisions of the Railroad Retirement Act (RRA) governing the initial
award of benefits.

Background

The Railroad Retirement Board (RRB) administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families under the Railroad Retirement Act (RRA) and the Railroad Unemployment
Insurance Act (RUIA). These programs provide income protection during old age and in
the event of disability, death, temporary unemployment or sickness. During fiscal year
(FY) 2005, the RRB paid approximately $9.2 billion in RRA benefit payments to 634,000
retirement and survivor beneficiaries.

The RRA provides for the payment of monthly annuities to retired railroad workers, their
spouses and survivors on the basis of the employee’s years of service in the industry,
age at retirement or, in certain cases, disability. A railroad retirement annuity may have
multiple components:

   •	 tier I, computed using Social Security Act formulas applied to both railroad and
      non-railroad earnings;
   •	 tier II, computed using a formula established under the RRA, applied to railroad
      earnings only;
   •	 a vested dual benefit, available only to certain individuals who were vested under
      both the RRA and the Social Security Acts before 1975; and
   •	 a supplemental annuity, available to retired workers who meet certain additional
      age and service criteria.

Spouse and survivor annuities are computed based on the railroad employee’s earnings
record. Vested dual benefits and supplemental annuities are available only to employee
annuitants.

The Office of Programs is responsible for the adjudication of benefits including
decisions on entitlement and computation of payment amounts. Benefit payment
operations are supported by both mainframe and local area network based computer
operations from the time of application through payment including the maintenance of
comprehensive historical records.
The Office of Programs distinguishes initial awards from other types of claims activity.
Initial awards are decisions to pay benefits for the first time to an applicant for a specific
type of annuity: employee, spouse or survivor.

This review was undertaken to support the OIG’s annual audit of the RRB’s financial
statements, which is required by the Accountability of Tax Dollars Act of 2002. In
compliance with the Office of Management and Budget’s Bulletin 01-02, Audit
Requirements for Federal Financial Statements, the OIG assesses compliance with
selected provisions of the RRA as part of its annual audit of the RRB’s financial
statements.

Objective, Scope, and Methodology

The objective of this audit was to determine whether the RRB had a reasonable basis
for the award of benefits under the RRA during the first quarter of FY 2005. To
accomplish our objective, we:

   	 interviewed responsible staff and management;
   	 identified compliance controls and assessed their effectiveness;
   	 identified and summarized the benefit payment provisions of the RRA; and
   	 evaluated initial award decisions on a sample basis.

We considered the results of the control assessments and transaction tests in forming
our overall assessment concerning compliance.

Our case review methodology linked RRA provisions governing the award of benefits to
the specific information, documentation and determinations required to support the
award of benefits. For each case in the sample we:

   •	 identified key personal information gathered by the agency to support the award
      process,
   •	 determined whether the agency had obtained necessary evidence;
   •	 assessed whether benefits were awarded consistent with the evidence; and
   •	 confirmed notice of award and appeal rights.

The details of our sampling and review methodologies are presented in appendices I
and II to this report. The Government Accountability Office’s (GAO) Standards for
Internal Control in the Federal Government, (GAO/AIMD-00-21.3.1, November 1999)
and, Internal Control Management and Evaluation Tool, (GAO-01-1008G, August 2001)
were the source of criteria for our assessment of compliance controls and other internal
control findings.
Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. We performed audit fieldwork at RRB
headquarters in Chicago, Illinois from December 2004 through July 2005 and November
2005 through January 2006.

                                     RESULTS OF REVIEW

Our tests of controls and transactions determined that the RRB had a reasonable basis
for the award of initial retirement, spouse and survivor benefits and has established
effective compliance controls. Our tests disclosed no evidence of material non
compliance with the benefit payment provisions of the RRA.

Our tests of documentation, controls and transactions identified some weaknesses in
supporting documentation and one payment error not previously identified for correction
by agency control processes. We also present for management’s review an example of
a control that may permit payment errors that exceed acceptable thresholds.

Missing Documentation

The agency needs to strengthen documentation of initial award processing.

Transactions and other significant events should be clearly documented, and the
documentation should be readily available for examination. Documentation of
transactions and other significant events should be complete, accurate and, whether in
paper or electronic form, be useful to managers in controlling their operations and to
any others involved in evaluating or analyzing operations. 1, 2

In some cases, documentation supporting initial awards is passed directly to the
imaging system by another automated system; however, some paper documentation
must still be scanned manually into the imaging system.

Our review of the supporting documentation for 45 initial awards identified two cases in
which documentation supporting the initial award of benefits was incomplete, thus
exceeding the sample acceptance threshold for this test methodology as described in
Appendix I. In both cases, printed award forms documenting the details of the benefit
calculation had not been scanned into the agency’s system of imaged records. Both
cases had been processed through the RASI system which does not automatically pass
the results of processing to the imaging system.3



1
 GAO, Standards for Internal Control In the Federal Government, (GAO/AIMD-00-21.3.1, November
1999), page 15.
2
GAO, Internal Control Management and Evaluation Tool, (GAO-01-1008G, August 2001), page 43.
3
 The Retirement Adjudication System Initial, or RASI, computes benefits based on information entered
by agency personnel and documents the results of processing on a hard copy paper form.
The examples of missing documentation identified during the audit are generally
attributable to human error in processing paper documents into agency systems. The
missing documentation makes it more difficult to determine the accuracy of the
adjudicative actions, increases the risk of adjudicative errors, and undermines the
credibility of agency decisions.

The Office of Programs plans to eliminate the use of the RASI system by using an
existing agency system that automatically passes the results of processing to the
imaging system. The target date for this conversion is under review.

Recommendation

We recommend that the Office of Programs develop a control to better ensure the
completeness of manually imaged records or eliminate manual intervention in the
process. (Recommendation #1)

Management’s Response

Management agrees that improvements to controls are warranted. They have recently
implemented a procedure to batch and log referrals requiring manual handling.

The full text of management’s response is included as Appendix III to this report.


Inconsistent Service and Compensation Data

The audit trail for initial awards is not consistent and reliable with respect to military
service used in the computation of benefits.

In five of the 45 cases (11%) reviewed during the audit, the earnings record used to
compute the benefit amount was either inconsistent with the proof of military service
retained by the agency, inconsistent with the automated historical record maintained, or
both. The number of exceptions identified exceeded the sample acceptance threshold
for this test methodology as described in Appendix I.

All transactions should be supported by documentation that is complete and accurate
and facilitates tracing the transaction and related information from initiation through
completion. 4, 5 The RRB does not presently have a control in place to identify and
correct inconsistencies of the kind identified by the audit. Inconsistencies in supporting
documentation undermine the credibility of agency decisions.



4
 GAO, Standards for Internal Control In the Federal Government, (GAO/AIMD-00-21.3.1, November
1999), page 15.
5
GAO, Internal Control Management and Evaluation Tool, (GAO-01-1008G, August 2001), page 43.
Recommendation

We recommend that the Office of Programs review the exceptions cited by the audit and
develop a control to improve the accuracy of documentation supporting military service.
(Recommendation #2)

Management’s Response

Management agrees and reports undertaking a series of initiatives designed to improve
record keeping for military service data. They plan to examine the specifics of the audit
exceptions to determine if the problems identified by the audit would be identified,
resolved, or prevented and consider whether changes to this project are warranted to
address the problems auditors found.

The full text of management’s response is included as Appendix III to this report.

Incorrect Annuity Beginning Date

One of the factors used to determine the annuity beginning date is the application filing
date. Generally, the application filing date is the date the application is received by the
agency or postmarked, if mailed.6 The agency has promulgated regulations that allow
for an earlier “protected” filing date if certain conditions are met.7 The conditions include
a written or oral intent to file followed by the timely filing of the formal application.

Our sample of 45 initial awards included a case that had an annuity beginning date
three months earlier than what is allowed by law and regulations due to the incorrect
use of a protected filing date. Based on the agency’s written procedures, this case did
not qualify for the protected filing date. In this case, agency personnel erred in
protecting the filing date because the application was not received within the required
time period. The use of an incorrect filing date caused a one time overpayment of
approximately $2,100.

Appendix I describes the test methodology used in this evaluation including the impact
of this exception on our overall assessment of compliance.

Recommendation

We recommend that the Office of Programs:

      	 take action to recover the overpayment identified by the audit (Recommendation
         #3); and



6
    20 CFR 217-16
7
    20 CFR 217-20
    	 issue a memorandum reminding field and headquarters personnel of the proper use
       of protected filing dates. (Recommendation #4)

Management’s Response

Management has reviewed the details of the case with the field office involved and
determined that the case had been mishandled. The Office of Programs has decided to
consider the annuitant “deterred from filing” and not overpaid.8

The Office of Programs believes that the mishandling of this case was an isolated
mistake and disagrees with the recommendation for a memorandum reminding field and
headquarters personnel of the proper use of protected filing dates. They have
discussed the case with the staff in the field office involved and plan no further action.

The full text of management’s response is included as Appendix III to this report.

OIG’s Comments on Management’s Response

We leave it to management to determine the audience that may benefit from a reminder
concerning the use of protected filing dates; however, we believe the limited action
taken by the Office of Programs may represent a missed opportunity.

Uncorrected Discrepancies May Exceed Acceptable Thresholds

Existing controls may not meet management’s expectation with respect to minimizing
uncorrected payment errors.

Our sample included a case in which a widow’s annuity was underpaid approximately
$11 per month because it had not been properly computed based on the employee’s
tier II amount. In this case, the widow annuity was based on two fewer months of
service than had been used to pay the deceased employee annuitant.

The RRA provides that the tier II portion of the widow annuity be paid based on the
employee’s tier II amount at the time of death.9 To be accurate, the widow’s benefits
must be computed with the same earnings record used to compute the employee’s
benefit; however, agency processing systems only identify discrepancies of three or
more service months for further review and possible correction.




8
  An annuitant who has been deterred from filing may be entitled to an earlier filing date than that on the 

application. 

9
  45 USC 231c(g)(1)(i) 

Discrepancies between the earnings records used to pay the employee and widow will
always result in a payment error. The existing control structure assumes that errors of
one to two months will have an acceptably low impact on the results of the benefit
computation. However, the impact of even small discrepancies increases over time due
to the application of cost-of-living increases to the employee annuity during his/her
lifetime that may exceed acceptable thresholds.

Recommendation

We recommend that the Office of Programs review its decision to exclude discrepancies
of less than three months from the internal control process that identifies discrepancies
between the earnings record used to compute a widow’s annuity and that used to pay
the deceased railroad employee. (Recommendation #5)

Management’s Response

Management believes that the case identified by the audit was an extremely unusual
data entry mistake which resulted in a temporary inconsistency. While they believe that
their policy not to review service discrepancies of less than three months is sound, they
have agreed to review that policy in light of this case.

The full text of management’s response is included as Appendix III to this report.
                                                                                Appendix I
                     SAMPLING METHODOLOGY AND RESULTS

We used statistical sampling to assess the effectiveness of controls over compliance
with the benefit payment provisions of the RRA.

Objective and Scope

The sampling objective was to determine whether the RRB had a reasonable basis for
the award of initial benefits under the RRA during the first quarter of FY 2005.

Case Review Methodology

Our case review methodology linked RRA provisions governing the award of benefits to
the specific information, determinations and documentation required to support the
award of benefits. For each case in the sample, we:

   •	 identified key personal information gathered by the agency to support the award
      process (28 items);
   •	 determined whether the agency had obtained necessary evidence (9 items);
   •	 assessed whether benefits were awarded consistent with the evidence (7 items);
      and
   •	 confirmed notice of award and appeal rights (1 item).

The details of the case review methodology are described in Appendix II.

Sampling Methodology

We used statistical acceptance sampling using a 90% confidence level and 5%
tolerable error which directed a 45 case sample. We selected the sample at random
from the universe of 7,730 initial decisions to award recurring benefits during the first
quarter of FY 2005.

The threshold for sample acceptance was zero errors. Zero errors would permit the
auditors to infer with 90% confidence that the RRB had a reasonable basis for its
decision in at least 95% of the universe of all award decisions. We applied the criteria
for sample acceptance separately to each of the seven key elements of the award
decision and the notice of award/appeal rights. We applied the same sample
acceptance threshold in our evaluation of control effectiveness.

Results of Sample Review

Our direct assessment of the basis of adjudication identified no errors in excess of the
sample acceptance threshold in six of the seven areas for which we evaluated the basis
of the RRB’s award decision. Each of the 45 randomly selected sample cases was
evaluated in each of the seven areas with the following result.
                                                                                  Appendix I
                       SAMPLING METHODOLOGY AND RESULTS

                                                                    CORRECT
                                                                     CASES
   The award of benefits was supported by an official wage
                                                                        45
   record.
   The award of benefits was supported by proofs of birth, death,
                                                                        45
   marriage and military service as applicable.
   The annuitant was entitled to the award of benefits under the
                                                                        45
   RRA based on the evidence of record.
   Benefits were awarded from the correct annuity beginning date.       44
                                                                    (see below)
   The annuitant was awarded annuity components to which
                                                                        45
   he/she was entitled; no components were omitted.
   All benefit reductions on the award were appropriate; no
                                                                        45
   reductions were omitted.
   All benefit increases on the award were appropriate and none
                                                                        45
   were omitted.

Our review of 45 cases included one initial award decision with a previously undetected
error. The error was due to the use of an incorrect application filing date in determining
the annuity beginning date.

Our review of notices of award decisions and appeal rights disclosed no exceptions or
errors.

During our review, we also noted some omissions and inconsistencies in the agency’s
records that did not result in payment errors and did not prevent us from concluding that
the agency had a reasonable basis for the decision to award benefits. These
weaknesses are described below.

Weaknesses in the Adjudicative Record

Our sample of 45 initial awards included seven instances (16%) of an incomplete
adjudicative record or an adjudicative record that was inconsistent with other agency
historical records.

         Form Documenting Decision to Award Benefits Not Retained                  2

         Historical Record of Military Service Inconsistent with Wage Record       5

The number of exceptions associated with both weaknesses exceeded the sample
acceptance threshold of zero errors.

These are control weaknesses that did not adversely impact our conclusion concerning
the basis for the agency’s decision to award benefits because we were able to assess
the basis for that decision from other sources.

The individual weaknesses in the adjudicative record did not adversely impact our
overall assessment of compliance controls because their effect was limited. The
                                                                           Appendix I
                    SAMPLING METHODOLOGY AND RESULTS

missing award forms impacted only eight of the 28 items of key information for which we
traced. The missing items would not prevent a reviewer from identifying the data used
in the award determination because the same information had been recorded in other
agency systems. The discrepant military service records impacted only three of the 28
items of key information for which we traced and prevented us from concluding
positively in only one of the nine areas in which we assessed the quality of agency
performance in obtaining necessary evidence.


Other Exceptions

One sample case had been paid incorrectly due to the omission of military service
months from the wage record used to award the benefit. The case had been identified
for review and correction by agency control systems. Since agency systems were
operating to ensure a reasonable basis for payment, we did not cite this case as a
payment error for purposes of sample evaluation.

One sample case was paid incorrectly due to omitted service months from the wage
record used to award benefits to a widow. This case was not cited as a payment error
for purposes of sample evaluation because it fell below the agency’s error tolerance
threshold. Agency processing systems only identify discrepancies of three or more
service months for further review and possible correction. In this case, although the
two-month discrepancy is below the established correction threshold, the dollar amount
($11 per month) associated with the error may indicate that such errors exceed levels
anticipated by management when the threshold was established.


Audit Conclusion

Accordingly, we conclude that RRB develops a reasonable basis for the award of initial
benefits under the RRA and maintains adequate supporting documentation for such
decisions.
                                                                             Appendix II
                            CASE REVIEW METHODOLOGY

Our case review methodology linked RRA provisions governing the award of benefits to
the specific information, determinations and documentation required to support the
award of benefits. For each case in the sample, we:

   •	 identified key personal information gathered by the agency to support the award
      process (28 items);
   •	 determined whether the agency had obtained necessary evidence (9 items); and
   •	 assessed whether benefits were awarded consistent with the evidence (7 items);
      and
   •	 confirmed notice of award and appeal rights (1 item).

Identification of Key Information

For each beneficiary in the sample, we identified key personal information gathered by
the agency to support the award process.

   1.   Date of birth
   2.   Date of employee’s death (survivor cases only)
   3.   Date of marriage (Spouse or widow cases only)
   4.   Date of divorce, as applicable
   5.   Beginning and ending dates of military service
   6.   Current connection determination on wage record
   7.   Application filing date
   8.   Type of spouse annuity (regular or divorced)
   9.   Remarriage for divorced spouse
  10.   Date employee relinquished rights
  11.   Date employee last worked
  12.   Request for annuity beginning date to begin (earliest date or specific date or age)
  13.   Military service indicated on application
  14.   Incarceration indicated on application
  15.   Report of excess earnings on application
  16.   Total service months from wage record
  17.   Lag service on wage record
  18.   Total service months in employee data maintenance system
  19.   Military service on the wage record
                                                                                          Appendix II
                               CASE REVIEW METHODOLOGY

     20.   Employee’s annuity beginning date
     21.   Type of annuity award (initial, recertification, partial, etc.)
     22.   Voucher date
     23.   Annuitant’s annuity beginning date
     24.   Type of annuity (full age 60, reduced age 62, full age, etc.)
     25.   Benefit components awarded: tier I, tier II, supplemental annuity, vested dual benefit
     26.   Benefit reductions10
     27.   Benefit increases
     28.   Annuitant’s gender

Necessary Evidence

Based on the foregoing information from the agency’s records, we assessed whether:
      1. 	 the annuitant’s proof of age was obtained;
      2. 	 proof of military service was obtained when required;
      3. 	 proof of marriage was obtained (for spouse and widow cases);
      4. 	 proof of divorce was obtained (for divorced spouses and widows);
      5. 	 the spouse/widower received 50% of their support from the employee (if the 

           employee was a female); 

      6. 	 the spouse or widow (regular or divorced) met the length of marriage 

           requirement by calculating the number of years of marriage; 

      7. 	 the divorced spouse remarried, and if so, entitlement does not exist;
      8. 	 the employee had a current connection based on date last worked and any non-
           railroad employment prior to the receipt of an annuity (for supplemental benefit
           entitlement determinations and survivor cases); and
      9. 	 the employment record on which benefits were awarded was consistent with 

           historical record maintained by the agency. 





10
   Under the RRA, the amount of benefits awarded may be increased or decreased in certain
circumstances. For example, concurrent entitlement to other retirement benefits such as Social Security
or early retirement.
                                                                              Appendix II
                           CASE REVIEW METHODOLOGY

Consistency of Award Determination with the Evidence

Based on our review of supporting documentation and agency consideration of the
evidence, we assessed whether the agency’s decision to award benefits was consistent
with the evidence. Specifically, we determined whether:

    1. 	 the award of benefits was supported by an official wage record;
    2. 	 the award of benefits was supported by proofs of birth, death, marriage and
         military service as applicable;
    3. 	 the annuitant was entitled to the award of benefits under the RRA based on the
         evidence of record;
    4. 	 benefits were awarded from the correct annuity beginning date;
    5. 	 the annuitant was awarded all annuity components to which he/she was
         entitled: tier I, tier II, supplemental annuity, vested dual benefit;
    6. 	 required benefit reductions had been applied (e.g. concurrent social security
         entitlement); and
    7. 	 required benefit increases had been included (e.g. widow minimum guarantee).

Notice of Appeal Rights
Our detailed testing included review of each case to determine whether the
beneficiaries had been notified of the agency’s decision, and advised of their right to
appeal including applicable time limits and filing methods.
Appendix III

